<html>
<title> - FEDERAL EFFORTS TO ADDRESS WITNESS INTIMIDATION AT THE STATE AND LOCAL LEVEL</title>
<body><pre>[Senate Hearing 111-578]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-578
 
FEDERAL EFFORTS TO ADDRESS WITNESS INTIMIDATION AT THE STATE AND LOCAL 
                                 LEVEL

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 8, 2010

                               __________

                          Serial No. J-111-69

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
57-937                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hannibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    38
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Canada, Ted, Victims; Advocate, Philadelphia, Pennsylvania.......    13
Clowden Barbara, Victims; Advocate, Philadelphia, Pennsylvania...    10
Coard, Michael, Law Office of Michael Coard, Philadelphia, 
  Pennsylvania...................................................    17
Frei, Richard L., Associator Professor, Community College of 
  Pennsylvania, Philadelphia, Pennsylvania.......................    23
Ramsey, Charles H., Commissioner, Philadelphia Police Department, 
  Philadelphia, Pennsylvania.....................................     2

                       SUBMISSIONS FOR THE RECORD

Canada, Ted, Victims; Advocate, Philadelphia, Pennsylvania, 
  statement......................................................    31
Clowden Barbara, Victims; Advocate, Philadelphia, Pennsylvania, 
  statement......................................................    32
Coard, Michael, Law Office of Michael Coard, Philadelphia, 
  Pennsylvania, statement........................................    34
Frei, Richard L., Associator Professor, Community College of 
  Pennsylvania, Philadelphia, Pennsylvania, statement............    40
Olshan, Marlene L., Chief Executive Officer, Big Brothers Big 
  Sisters, Southereastern Pennsylvania, statement................    52
Ramsey, Charles H., Commissioner, Philadelphia Police Department, 
  Philadelphia, Pennsylvania, statement..........................    55


FEDERAL EFFORTS TO ADDRESS WITNESS INTIMIDATION AT THE STATE AND LOCAL 
                                 LEVEL

                              ----------                              


                        FRIDAY, JANUARY 8, 2010

                               U.S. Senate,
                        Committee on the Judiciary,
                           Subcommittee on Crime and Drugs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:40 a.m., 
Constitution Center, Philadelphia, Pennsylvania, Hon. Arlen 
Specter presiding.
    Present: Charles H. Ramsey, Commissioner, Philadelphia 
Police Department; Barbara Clowden, Victims' Rights Advocate; 
Ted Canada, Victims' Rights Advocate; Michael Coard, Law Office 
of Michael Coard; Dr. Richard L. Frei, Community College of 
Pennsylvania; and Erica Hines, Public Participant.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. Good morning, ladies and gentlemen. The 
Criminal Law Subcommittee of the U.S. Senate Judiciary 
Committee will now proceed with this hearing.
    This hearing has been recognized following an extensive 
series of articles in the Philadelphia Inquirer, maintaining 
major problems in the criminal justice system setting in 
Philadelphia. This is a subject which I have worked on for 
decades, going back to my days as an Assistant District 
Attorney in this city, and then as Philadelphia's District 
Attorney for 8 years, from 1966 until 1974, and on the 
Judiciary Committee, where I've served since my election to the 
Senate in 1980, I've been concerned about the problems of 
violent crime nationally, and with special emphasis on the 
problems in my hometown of Philadelphia.
    Our hearing today is going to take up the issue of witness 
intimidation, the question of how to protect witnesses. 
Criminal trials cannot proceed unless there are witnesses, and 
if witnesses are subject to intimidation or subject to the 
ultimate elimination, through murder, obviously criminal cases 
cannot go forward.
    Now, this is one problem of a whole series of problems, and 
we will consider having additional hearings depending on 
circumstances. I regret that we were unable to have this 
hearing when it was first scheduled, but the Senate schedule, 
as you may know, during December was extended because of 
legislation on comprehensive health care reform. Yesterday, I 
just returned from a trip overseas where I visited Afghanistan, 
and that has required the setting of the hearing for today.
    We have a distinguished array of witnesses. We have the 
distinguished Philadelphia police commissioner, who came to 
this position after 29 years of service on the Chicago Police 
Department, including being commissioner, and then commissioner 
in Washington, DC, and brought out of retirement to serve in 
Philadelphia.
    We have two witnesses, Ms. Barbara Clowden and Mr. Ted 
Canada, who have lost children as a result of murders because 
they were prospective witnesses. We have a distinguished 
Philadelphia practicing attorney, Michael Coard, who has a 
little different perspective, who's had some comments of a 
critical nature--entitled to those views--on the Inquirer 
series.
    And we have Professor Richard Frei from the Philadelphia 
Community College, who has done some scientific research on the 
issue of the culture of snitching or ratting. Times have 
changed significantly since I was District Attorney here, lots 
of problems. But to have an entire culture is different, and 
we're going to be looking at this issue from quite a number of 
perspectives.
    I want to especially thank the police commissioner for 
coming. We've had a change of schedule a couple of times, but 
he knows what schedule changes are like; he has to change his 
all the time depending on what happens in his very, very 
complicated job.
    Well, thank you for joining us, Commissioner Ramsey. The 
floor is yours.

      STATEMENT OF POLICE COMMISSIONER CHARLES H. RAMSEY, 
          PHILADELPHIA, PENNSYLVANIA POLICE DEPARTMENT

    Commissioner Ramsey. Thank you, and good morning, Chairman 
Specter, invited speakers, and guests. Thank you for the 
opportunity to appear before you today and discuss how the 
Federal Government can assist local and State law enforcement 
agencies in preventing, and responding to, witness 
intimidation.
    As police commissioner for the city of Philadelphia and the 
former chief of police for the Metropolitan Police Department 
in the District of Columbia for nearly 9 years, I can't 
overstate the importance of collaboration between the Federal 
Government and local law enforcement.
    What the recent Philadelphia Inquirer series on the 
criminal justice system in our city so clearly demonstrated is 
that our system is, indeed, dysfunctional. Together, we work to 
fight crime and make our communities safer. Separately, we 
often have competing goals and metrics of success, operating 
different procedures and responding to different political 
pressures. There is no simple solution to fixing a system-wide 
problem.
    The Inquirer pointed out that the conviction rate for 
felony crime in Philadelphia is the lowest in the Nation. 
Raising the conviction rate should not be viewed, however, as 
the cure-all for a broken system, nor should any statistic be 
interpreted as an indicator of its success or failure. Reducing 
systemic dysfunction and placing blame squarely with any single 
agency does a disservice to us all.
    In a New York Times editorial entitled ``Criminal Justice 
Cube,'' published on December 9, 1981, the board wrote the 
following: ``It's long been understood that criminal justice is 
a Rubik's Cube. What the police do will affect what happens in 
court, which will affect what happens in the jails and prisons. 
You can't hope to deal with crime better by focusing on any 
single part any more than you can solve the Cube by 
concentrating on one square at a time.''
    This editorial was published nearly 30 years ago in 
response to the dysfunction that marked the criminal justice 
system in New York City and its surrounding boroughs. Its 
message, however, resonates loud and clear today. Substitute 
Philadelphia for New York--or any large city, for that matter--
and the conversation is just as relevant as it was in 1981.
    Now in 2010, we continue to be overwhelmed and under-
resourced in terms of how best to approach the deep fissures in 
our criminal justice system. It is time to change the 
conversation. The topic of this hearing, witness intimidation--
and I would add to that witness non-cooperation--undermines the 
integrity and reliability of our criminal justice system.
    From a financial perspective, the Federal Government can 
play a meaningful role in guarding victims' rights in proposed 
House Resolution 1741, the Witness Security and Protection 
Grant Program Act of 2009. The bill would make competitive 
grants available to State and local law enforcement 
jurisdictions to establish and maintain certain protection and 
assistance programs.
    As the Inquirer series noted, financial assistance for 
these programs has been dwindling since 2007. This is an 
excellent opportunity for the Federal Government to aid State 
and local law enforcement agencies in combatting the culture of 
violence around witness intimidation. This is a necessary bill 
whose value cannot be measured in budgetary terms, and I urge 
the Committee and the full Senate to enact this bill into law.
    Another tangible financial step that the Federal Government 
can take is investing in law enforcement technology that 
maximizes data sharing and integration between agencies. 
``Today's complainant is often tomorrow's defendant,'' as one 
of our detectives recently said regarding why he believed 
witness non-cooperation with police is so pervasive.
    The same people committing crimes are frequently the 
victims of crime themselves. Three out of every four shooting 
victims in 2008, for example, here in Philadelphia had a 
previous arrest record. Of those with an arrest record, 1 out 
of 5 had at least 10 or more prior arrests.
    All of our investigators should have access to a database 
which traces a defendant, his entire criminal history, his 
associates, the victims involved, the dispositions of his 
hearings, and his status in the correctional system in one 
clearinghouse of information. The way in which we deploy 
technology throughout the various criminal justice agencies is 
a mirror of the criminal justice system itself: fragmented, 
decentralized, and lacking coherence of purpose. The overall 
efficiency with which all agencies perform their jobs will go a 
long way toward helping police and prosecutors fight witness 
intimidation and non-cooperation.
    On a much broader level, I would also suggest the Federal 
Government consider the option of establishing a national major 
crime commission. In the past, the Federal Government has 
empaneled crime commissions to accomplish this goal of viewing 
the entire criminal justice system from a single framework of 
relevance.
    A national crime commission in 2010 could provide an 
invaluable compendium of best practices and strategies for 
improvement across the board. The difficulty with addressing 
system deficiencies in a piecemeal manner is that a small 
change in one part of the system may result in unintended 
consequences in another area and we can't continue to operate 
that way.
    Here in this city, the Philadelphia Police Department will 
continue to work hard, and I believe make great strides, at 
connecting with many of our diverse communities in reducing 
crime. In doing so, we will play an important role in 
combatting witness intimidation and non-cooperation. We can't 
do it alone, however, changing the system will require a 
systems approach and it is here that the Federal Government can 
play an important role in supporting State and local law 
enforcement agencies.
    Thank you.
    [The prepared statement of Commissioner Ramsey appears as a 
submission for the record.]
    Senator Specter. Well, thank you very much, Commissioner.
    Beginning with the issue of the underlying cause of crime, 
you've been at this line of work for a long time. When did you 
start at the Chicago Police Department?
    Commissioner Ramsey. December, 1968.
    Senator Specter. What are your views as to the seriousness 
of the crime problem now, 42 years later?
    Commissioner Ramsey. Well, for my experience in the 1960s 
and early 1970s, we had a very serious problem, primarily 
because of gangs, very large and sophisticated gangs. I'm 
referring to Chicago, because that's where I'm from and that's 
where my experience was in dealing with crime at that 
particular point in time. We did see a lull, if you will, in 
gang activity in the 1980s, and then a resurgence in the 1990s 
with crack cocaine and so forth when it came to the forefront.
    Senator Specter. Have we made any improvements in the 
intensity of the big-city crime problem?
    Commissioner Ramsey. Well, I think we have. I think we've 
made significant progress. I think that police departments, 
working with communities, have gotten a lot more sophisticated 
in being able to target crime specifically through analysis of 
data, deploying our resources in a more effective manner, and 
the like, building stronger bridges to the community. A lot of 
work still needs to be done in that area, there's absolutely no 
question about that.
    Senator Specter. How about on the issue of the underlying 
causes of crime, the issues of education, poverty, housing, job 
training?
    Commissioner Ramsey. I don't think we've made nearly enough 
progress. I think our educational system----
    Senator Specter. Not nearly enough, or any, or much?
    Commissioner Ramsey. Well, I don't think much. I'd hate to 
say we've not made any. I'm not an expert in education, for 
example, but certainly many of our children are graduating from 
elementary schools, high schools, and in some cases even 
colleges, and still are not prepared to deal with the kinds of 
jobs that are available in the 21st century. They don't have 
the kind of skills to compete for the jobs that are available 
oftentimes.
    Too many drop out, especially in our public schools in 
inner cities. We have too high a rate of drop-outs. We have 
dysfunctional families, and now we have generations of 
dysfunction within families. So we've got a lot of social 
problems that need to be addressed, because crime is the end 
result of a lot of these things.
    We can't solve it by adding more cops, adding more prisons, 
adding more of those kinds of things without taking a look at 
the front end of what's driving it to begin with and taking 
aggressive steps to correcting that, so that from the beginning 
all the way to the end we've taken a comprehensive view of 
crime and what's driving crime in order to have a real lasting 
impact.
    Senator Specter. When you call for a national commission, 
Senator Webb and I have introduced the Webb-Specter bill 
calling for such a commission. I believe that, before this year 
is up, we will have legislation accomplishing that.
    Commissioner Ramsey. Good.
    Senator Specter. And when you are looking for grants, I'm 
co-sponsoring the legislation to provide the grants. That is 
more problematic because of the shortage of funding, but where 
would you like to see those grants directed?
    Commissioner Ramsey. Well, I mean, in the area of 
technology, I think, is really essential. We all have 
information systems, most of which are outdated, but many 
aren't really able to communicate effectively so we can share 
information. Witness protection programs, for example, which is 
why we're here today. Certainly there's been some funding cut. 
We've averaged about $1 million a year; last year I think it 
was like $800,000 available.
    Senator Specter. How far? How far does that go?
    Commissioner Ramsey. Well, it doesn't go far enough. I 
mean, it's going to come to a point. The DA's office 
administers that, but in speaking with people from that office, 
the fear is that a time will come when some people may have to, 
in fact, be turned away simply because there's a shortage of 
funding. We should be in a position where anyone who has 
information to help us in a criminal matter, we ought to be 
able to provide that support, should it be needed.
    Senator Specter. We're going to take a look, before we're 
finished on these hearings, at the Federal Witness/Victim 
Protection program. That's a pretty good program, but it's a 
very expensive program. When there have been criticisms 
directed at the Philadelphia District Attorney's Office on the 
conviction rate, it ought to be noted that it's not the 
prosecutor's fault when there is not a conviction when there's 
not a witness, when the witness has been intimidated or killed. 
That has happened, regrettably, too often. We're going to hear 
some specifics from two parents, who will tell specifics 
illustrative of this kind of a problem.
    Another course is to have Federal legislation which would 
make it a Federal crime to intimidate a State court witness. 
Right now, our legal research shows we do not have such an 
offense. That would bring the FBI into the case. As an 
experienced police officer, what impact do you think that would 
have if these hoodlums who intimidate or murder knew that it 
was a Federal matter and that the FBI would be in the case? 
Would that make a difference in their approach to witness 
intimidation?
    Commissioner Ramsey. I think it would make a tremendous 
difference. We find, even in cases outside of just witness 
intimidation, whenever we're able to bring it to a Federal 
court, it does have a different impact on individuals. They 
really are fearful of going into Federal court, in many 
instances. I think the fact that it would be a Federal offense, 
and hopefully with a very, very harsh penalty if convicted, I 
think that would make a tremendous difference and make people 
think twice before they did it.
    Senator Specter. Would you support a mandatory sentence on 
witness intimidation?
    Commissioner Ramsey. I would. Hopefully it would be a 
sufficient penalty. I think that there needs to be a real 
strong message sent that it's just not OK to do that.
    Senator Specter. Well, I have been pressing for mandatory 
sentences on Medicare and Medicaid fraud. It's estimated that 
we lose about $45 billion a year on Medicare fraud, when we're 
searching for dollars to provide health coverage to 47 million 
more Americans. But there is a reluctance today to impose 
mandatory sentences, going back to the mandatory sentences on 
crack cocaine, which have been out of line, leading to 
discretion. But I'm interested in your view as a law 
enforcement officer, a police officer, of the value of 
mandatory sentences.
    Commissioner Ramsey. Well, I think you have to be very 
careful with mandatory sentences, personally. But I think 
something as serious as witness intimidation, and in many cases 
leading to murder, I think that's an exception. I think the 
fact that someone would actually intimidate or kill an 
individual to keep them from testifying against them in court, 
I can't think of many things that are more serious than that.
    I think if ever there were a crime where consideration 
ought to be given to a mandatory sentence, that falls into that 
category. I think we do have to be careful. I think that we did 
go overboard with mandatory sentencing in some regards years 
ago, but there is a place for it, and I think witness 
intimidation is one of those areas.
    Senator Specter. You commented that you think a defendant 
brought into Federal court takes it more seriously. Why do you 
think that is?
    Commissioner Ramsey. I don't know why, other than the fact 
that, you know, because the system doesn't move as--it doesn't 
have the same volume that the State system has, that the 
sentences that are imposed in many instances, whether it's a 
gun offense or what have you, tends to be longer.
    I just think the whole environment or atmosphere when you 
go into a Federal court versus a local court is just somewhat 
different, and they haven't been exposed to it that often. I 
just think it has an impact in the feedback I've gotten from 
people on both sides, whether it's another law enforcement 
agency or from a person who's been in the criminal justice 
system. They do not want to go into Federal court.
    Senator Specter. Do you think it has anything to do with 
the quality of the Federal court judges contrasted with the 
quality of the State court judges?
    Commissioner Ramsey. I don't know. I think we've got good 
judges at the State level, we've got good judges at the Federal 
level, and we've got some that aren't so good at both levels, 
having worked in Washington, DC, which is largely a hybrid of a 
Federal system. I've seen some judges that left a little to be 
desired on the Federal side as well. So, it's up to the 
individual judge. I think, by and large, most of them are fair 
and most of them do a very good job. But there are some that, 
quite frankly, leave something to be desired.
    Senator Specter. Do you think there's any inherent 
superiority in the appointing process with judicial commissions 
and appointments as opposed to the electoral process?
    Commissioner Ramsey. Well, the problem I have with the----
    Senator Specter. And do you think we ought to elect police 
commissioners?
    [Laughter.]
    Commissioner Ramsey. Well, I mean, you do have sheriffs 
that get elected. I mean, there's pros and cons to both. The 
biggest problem I have with elected judges, and even being in 
law enforcement, when I walk into that voting booth, 80 percent 
of the names on that ballot, I don't know who they are, I know 
nothing about their record. It'll be Democrat or Republican, 
and I don't know what that has to do with their effectiveness 
as a judge, what political party they happen to be in. I'd 
rather see, what's their conviction rate? What court do they 
sit in, what's their conviction rate, what's their track 
record? Then I can make a judgment.
    I don't see any of that, so to me it's almost a joke, going 
in, voting for judges, because you have no personal knowledge. 
You look at an editorial section and they may print what they 
think is a good judge versus a bad judge, and you have no idea 
of how they even arrived at that conclusion. So I think an 
appointment system might be better for the average person going 
to vote. But no system is perfect.
    Senator Specter. We use the expression from time to time 
``tougher judges.'' It's hard to quantify what makes a tougher 
judge, but you have the judicial discretion pick up on 
continuances. Do you think that there's a difference? And I 
realize you haven't gotten a whole lot of experience of going 
into a Federal court, even as a State court. But do you have 
any sense of the difficulty of getting a continuance in a 
Federal court contrasted with a State court?
    Commissioner Ramsey. I know the continuances at the State 
level happen far more frequently than, in many cases, they 
should. A lot of witnesses get tired, they have jobs, they've 
got to take off work in order to get to court, and that just 
goes on, and on, and on. I think there needs to be a limit.
    But again, this whole notion of ``tough judges,'' judges 
should be fair, should be impartial. But I do think that people 
with long criminal histories, that are constantly coming before 
the courts, constantly committing crimes, you know, something 
has to be done about it.
    We have people that have 10, 20, 30, 40 different prior 
arrests. At some point in time you have to recognize that that 
individual just needs to be taken off the streets. There have 
to be consequences and the consequences have to be significant 
in order for people to get the message. You just cannot shoot 
people, rob people, and do things of that nature and cause harm 
to others without having an expectation that there will be some 
consequences if you're convicted.
    Senator Specter. To what extent--if you know, Commissioner 
Ramsey--do witnesses come to you and complain that they're 
being threatened, intimidated by defendants in criminal cases 
where they're scheduled to testify?
    Commissioner Ramsey. I think that it's not even--you know, 
I get feedback from our detectives, and that's basically where 
it comes from. Sometimes it's not even the overt act, it's just 
the fear. People have to live in the neighborhood, they have 
children that they fear for. It's not so much sometimes the 
individual themselves, it's their family. It's just a way in 
which they're viewed within a community, whether that's real, 
perceived, or what have you.
    But there is a legitimate intimidation factor that's out 
there, there's no question about that. We've got to find a way 
to do something to make people feel safe and secure if they do 
step forward and provide information, because the only way 
we're going to deal with crime in communities is when the 
community steps forward, but they have to feel comfortable in 
doing so and know they have support.
    Senator Specter. And when you say within the community, is 
there some stigma of disapprobation for people who testify?
    Commissioner Ramsey. There's no question, and that's not 
just recent. I mean, that's been for a period of time. I mean--
--
    Senator Specter. Why is that?
    Commissioner Ramsey. Well, I don't know specifically. I 
just know that even--you know, you watch an old movie made in 
the 1930s and they'll refer to an informant as a rat, you know. 
I mean, we use derogatory terms toward people who provide 
information, who cooperate with authorities.
    I think that that's something that has to stop because it 
creates a mind-set that it's wrong, so it puts you in a 
situation where you need cooperation, yet there's pressure not 
to provide any kind of information or cooperate with 
authorities at all, and it just goes on and on and on and 
things never get better.
    Criminals take advantage of that. They take full advantage 
of it, there's no question about it. And if they do get caught 
or charged with intimidation and get convicted, I mean, what 
happens to them? I mean, it has to be something that is very, 
very severe, in my opinion, so that the message is there that 
you just can't do that.
    Senator Specter. When some prospective witness comes to 
complain to the police department about intimidation or 
threats, do you have the manpower to begin to cope with witness 
protection?
    Commissioner Ramsey. Our District Attorney's Office does a 
very good job. I mean, the DA actually runs the witness 
protection program. They do a very good job. People who are in 
the program and who comply with the rules, we don't have an 
issue. It's when people decide, you know, to go back to a 
neighborhood or don't comply. And it's hard not to. I mean, 
you've got family, you've got school, you've got all kind of 
issues that cause people to do it, and I'm certainly not 
blaming them. But it's just a complicated situation to be in.
    But the DA's office, I think, does a very, very good job 
when it comes to providing the protection for people who are in 
the program. But again, without funding, then they have to 
really establish some kind of priority as to who would be 
eligible for the program, who wouldn't be, how long can we keep 
them in the program, all those kinds of things, and that's 
where you start running into problems and issues.
    Senator Specter. To what extent does the District 
Attorney's Office have resources to provide protection?
    Commissioner Ramsey. Well, they'd be in a better position 
to say that. I know they've had some cuts. I think the last 
couple of years, they've had about $1 million to work with. It 
was cut last year; $880,000, I believe is what was available. 
Possibility of future cuts. The funding comes through the State 
Attorney General's Office.
    But again, as more cases go before the courts, as more 
people feel comfortable in testifying, then you're going to 
have a greater demand for people who are going to need some 
kind of protection and you're going to have to have some 
funding in place for the DA's office to be able to provide 
that. That's where we'll run into some issues. We solved one 
problem, but we can create another one for ourselves if we 
don't have the resources in place.
    Senator Specter. Commissioner Ramsey, thank you for coming 
in today to testify.
    Commissioner Ramsey. Thank you, sir.
    Senator Specter. I thank you for being our police 
commissioner.
    Commissioner Ramsey. Thank you. Appreciate it.
    Senator Specter. We know you have other duties to attend 
to, so we would understand if you wish to move on to take care 
of those duties.
    Commissioner Ramsey. Well, thank you. I do have a couple. 
Thank you.
    Senator Specter. Thank you very much.
    We turn now to our panel of civilian witnesses. We're going 
to begin with two parents whom we have here who lost children 
as a result of murders of prospective witnesses. I want to 
turn, first of all, to Mrs. Barbara Clowden, the mother of Eric 
Hayes, who was murdered in November of 2006, just 2 days before 
he was to testify in an arson trial.
    Because Eric Hayes' life had been threatened in January of 
2006, Mrs. Clowden signed a contract with the city, agreeing to 
place Eric and the family in the city's witness relocation 
program. Funds for relocation were insufficient to support the 
family to the time of the trial. Mrs. Clowden now says that 
entering the program was ``the worst thing I ever did in my 
life.'' She is suing the city for failing to protect her family 
and says her son's death was the result of a ``State-created 
danger.'' She now says that she wishes her son had never agreed 
to testify, understandably so.
    Thank you for coming in to testify today, Mrs. Clowden, and 
to tell us what your experiences have been. Push the microphone 
very close to you and speak into it. Thank you.

STATEMENT OF BARBARA CLOWDEN, VICTIMS' ADVOCATE, PHILADELPHIA, 
                          PENNSYLVANIA

    Ms. Clowden. Good morning. Thank you for the opportunity to 
be here today. I lost my son Eric on November 22, 2006. Eric 
and my family entered the Witness Relocation Program as a 
result of Eric testifying in a trial--scheduled to testify in a 
trial of a young man that tried to burn down our house because 
they wanted Eric to sell drugs for the local guy there. And the 
boy came around to set fire to our house on November 13, 2005, 
and Eric looked out the door----
    Senator Specter. Why did the boy want to burn down your 
house?
    Ms. Clowden. Because earlier, like a couple weeks before, 
they came around to fight Eric and he was fighting them. And I 
guess they felt he--he could be a threat to them, because he 
wouldn't sell drugs for them.
    Senator Specter. Did the boy who tried to burn down the 
house want Eric to participate with him in selling drugs?
    Ms. Clowden. Yeah. It was him and another guy.
    Senator Specter. And did your son Eric refuse to 
participate in drug sales?
    Ms. Clowden. Yes.
    Senator Specter. And was that the reason he tried to burn 
down the house?
    Ms. Clowden. Yes.
    Senator Specter. Uh-huh. And what did he do specifically 
with respect to trying to burn down the house?
    Ms. Clowden. He--he was saturating the door with gasoline. 
He was pouring a lot of gasoline on the door. At the time that 
Eric looked down and seen him, he was getting ready to light 
the match.
    Senator Specter. And he wanted to burn the house down?
    Ms. Clowden. Yes.
    Senator Specter. Uh-huh. That's a little hard to 
comprehend, Mrs. Clowden. I don't doubt that you are laying out 
the facts, but isn't that extreme, to commit an arson, take 
people's lives, over the disagreement with that man--I won't 
call him a boy, that man--had with your son?
    Ms. Clowden. I would say it was a bit extreme, but that's 
what happened.
    Senator Specter. I'm asking you the question to try to 
understand what happens there. Can you give any insight into 
why somebody would do something so drastic under those 
circumstances?
    Ms. Clowden. No. I guess it's just, when people want things 
done the way they wanted to do it and you don't--they--people 
don't do what they want them to do, everybody do things in a 
different way.
    Senator Specter. No regard for human life.
    Ms. Clowden. Well, he didn't have none.
    Senator Specter. Or suffering. To be burned to death is a 
pretty horrible fate. But that's what he was doing, lighting--
pouring gasoline to light the house on fire.
    Ms. Clowden. Yes. That's what he was doing.
    Senator Specter. Then what happened with respect to the 
Witness Protection Program?
    Ms. Clowden. Well, we entered into the Witness Protection 
Program and they put us in a hotel.
    Senator Specter. Mrs. Clowden, I can hear you, but they 
can't hear you all the way in the back.
    Ms. Clowden. OK. We entered into the Witness Protection 
Program.
    Senator Specter. Your picture is going to be on television, 
but your voice won't be, so speak up.
    Ms. Clowden. They put us in a hotel and they said that we 
were going to have to look for another place to live, and they 
said they were going to assist us in that. So we went to one 
hotel and we stayed there.
    Senator Specter. You went to the DA's office and they made 
arrangements for you to go to a hotel?
    Ms. Clowden. Yes. The District Attorney's Office.
    Senator Specter. And what happened next?
    Ms. Clowden. And we went to the hotel and we lived in the 
hotel for a lot of months.
    Senator Specter. For how long?
    Ms. Clowden. From January the 13th to the end of October 
1906.
    Senator Specter. Do you have any idea why it took so long 
for the trial to come up?
    Ms. Clowden. No. I don't know why it took so long for the 
trial.
    Senator Specter. And then what happened?
    Ms. Clowden. While we were in the hotel, looking for a 
place to stay--it's kind of hard to look for a place to stay. 
We had to move all of our things. We went to the hotel and we 
were looking for a place to stay, but a lot of problems came 
from having to do that, look for----
    Senator Specter. What happened? Who came?
    Ms. Clowden. A lot of problems. We had a lot of problems 
finding another place to stay.
    Senator Specter. Why did you have to find another place to 
stay?
    Ms. Clowden. Because Eric was being threatened after the 
guy got arrested and we had to go to----
    Senator Specter. Did the guy know where Eric was in the 
hotel?
    Ms. Clowden. Before we went to the hotel.
    Senator Specter. Huh?
    Ms. Clowden. Before we went to the hotel, we was at our 
house and that's why we left our house.
    Senator Specter. Right.
    Ms. Clowden. Because they kept coming near to fight him and 
telling him, don't go to court. And they told me that if he 
kept going to court, I was going to have a dead son.
    Senator Specter. Then what happened?
    Ms. Clowden. So when we went to the preliminary hearing, I 
told the District Attorney what had happened and they suggested 
that we leave--leave the house.
    Senator Specter. And then you left the house and went to 
the hotel?
    Ms. Clowden. Yes.
    Senator Specter. What happened next?
    Ms. Clowden. We--we lived in the hotel. Like I said, we was 
in the hotel and I was trying to find another place to live, 
since I couldn't go back to my house.
    Senator Specter. And did you find another place to live?
    Ms. Clowden. No. I couldn't find a place to live because I 
still had the responsibility of my house, and my income was 
limited. The city didn't have no--no resources to help you if 
you came into that situation.
    Senator Specter. So what did you do? Did you go back to 
your house?
    Ms. Clowden. No. They--they put us in another hotel and 
they said that they would help me--give me a subsidy program 
called Transitional Housing, and with that program you have to 
stay in Philadelphia. And I kept saying, well, I think we need 
to leave Philadelphia, because if we don't they're going to 
kill my son. And they was like, the city of Philadelphia, OESS, 
was like, well, we'll just give you transitional housing and 
you just move to another part of Philadelphia, and that's what 
we did. And 2 weeks after we moved into the house that they 
helped us get, he got shot. That's when they shot Eric.
    Senator Specter. The man found your son and shot him?
    Ms. Clowden. Yes. We were two--yeah. Two weeks after we 
moved into the house.
    Senator Specter. Uh-huh. What were the circumstances, if 
you know, as to how he found your son and how he shot him?
    Ms. Clowden. I'm not sure how they found out where we were 
at.
    Senator Specter. And what happened to the shooter?
    Ms. Clowden. The police department said they didn't have 
enough evidence to arrest anyone. They did arrest someone, but 
then they said he confessed to the murder, but then they came 
back and said that he didn't do it because he was in a lock-up 
facility in another part of the city on that day, and so it 
wasn't him.
    Senator Specter. So has anybody been prosecuted for the 
murder of your son Eric?
    Ms. Clowden. No. They said they don't have--they don't have 
enough evidence to really get a conviction.
    Senator Specter. Well, thank you for providing that 
testimony, Mrs. Clowden.
    Ms. Clowden. Thank you.
    [The prepared statement of Mrs. Clowden appears as a 
submission for the record.]
    Senator Specter. We turn now to Mr. Ted Canada, 
Philadelphia resident, SEPTA bus driver, single parent. In 
2005, his son, Lamar Canada, was shot 12 times and killed by 
Dominick Peoples and another unidentified shooter in 
Philadelphia over a gambling debt. One witness to the shooting, 
Johnta Gravitt, 17 years old, was murdered 10 days after he 
testified at the preliminary hearing and identified Peoples as 
one of the shooters. Another witness, Martin Thomas, initially 
cooperated, but after his statement to the police was publicly 
posted, the neighborhood identified him as a snitch and he 
recanted. Peoples was convicted.
    Mr. Canada is active in the anti-violence group, Men United 
for a Better Philadelphia.
    Mr. Canada, thank you for coming in. Pull the microphone 
close and tell us what happened to your son here.

   STATEMENT OF TED CANADA, VICTIMS' ADVOCATE, PHILADELPHIA, 
                          PENNSYLVANIA

    Mr. Canada. Good morning, everyone. Thanks a lot for having 
me.
    In 2005, my son, he was drastically murdered. It was very 
senseless violence that we see that's taking place in the city, 
not only in the city of Philadelphia, but all over the world. 
The part that got to me mostly was losing a son at such a young 
age, and after that, losing another young man that was trying 
to do the right thing. This young man, Johnta Gravitt, to me 
and my family, was basically a hero because we were able to get 
some closure in our son's murder. Unfortunately, Ms. Barbara 
Clowden was not. That was--came from Johnta and other people 
stepping up to testify.
    However, I don't feel as though Johnta got a good deal out 
of it because he was murdered 10 days later, and the police 
obviously said it had no connection to him testifying at my 
son's hearing. However, our family felt different.
    When he came to the hearing to testify, he basically was on 
his own. When we left the hearing, ironically, the police did 
not even escort Mr. Gravitt home. He was actually headed for a 
bus stop when my uncle and myself and our family members 
noticed that he was getting ready to catch the bus and we 
offered him a ride home. And in the statement, if you read the 
statement and article in the Inquirer, one of the officers 
stated that it was safer for Johnta to catch the bus than it 
would be for two white officers to take him home in his 
neighborhood.
    So I just came up with a few common-sense examples of 
things that you can do, because generally what happens is, 
everybody tries to turn everything over to a budget and they 
start thinking, well, it's the budget, we don't have money to 
do this, we don't have money to do that. That's what it usually 
boils down to every time you want to make changes or every time 
you want to do something different.
    A lot of times it just takes common sense, such as--you 
know, my suggestion was, you know, you can come up with the 
answer of two white officers. Why wouldn't you just allow two 
black officers, or just officers in general that can fit the 
job that needs to be done? I mean, you have different--I've 
been down to the courthouses and I've seen officers who look as 
young as 18 years of age and younger. I mean, why not utilize 
the correct people to do the correct job? I mean, it doesn't 
take money. I mean, and also, we need to stop making it so easy 
for these witnesses' information----
    Senator Specter. Mr. Canada, I'm not following you on the 
distinction you made between the two black officers and the two 
white officers. Could you amplify what you mean?
    Mr. Canada. Sure. What I mean is, if you're going to have--
if you're dealing in a black neighborhood, yes--what the 
officer was trying to say, that if two white officers bring a 
black youth home, it's going to stand out like a sore thumb. So 
what I'm saying is, why not use two black officers so it 
doesn't make it so obvious?
    Senator Specter. I see.
    Mr. Canada. Black, young, youth officers that can probably 
assist these gentlemen.
    Senator Specter. So it doesn't stand out that the young man 
may be cooperating with the police.
    Mr. Canada. Right. That is correct.
    Senator Specter. OK. I've got you now.
    Mr. Canada. That is correct. And also, stop making it so 
easy. How was it that that gentleman's testimony posted up in a 
Chinese restaurant right in his very own neighborhood? Someone 
had to get that testimony for them to have that and point it 
up, to start calling the gentleman a snitch or a rat. So, his 
life was threatened.
    And it's so many different ways that we probably could 
utilize the witness intimidation without being--you know, 
putting a financial burden on the State, such as, I mean, 
simple stuff. Maybe, why not let the witnesses testify via 
video? I mean, you can testify via video, whereas you're not 
feeling unsafe, you're not probably at the place. I mean, I'm 
sure with today's technology, that could be done.
    Also, you know, the postponements of the court hearings. 
It's like, it's amazing how, you know, a court case drags on 
for years and years and years. And for a prime example, my son 
had two shooters. One shooter was brought to justice, and just 
recently it took all these years to bring the other shooter to 
justice. And everybody knew who this gentleman was, however, 
after Johnta was murdered and the other witness was 
intimidated, no one stepped up.
    So now it took all the way until New Year's Eve for me to 
get a call from the detectives, letting me know--which was very 
courteous of him, to let me know that they got the other 
shooter. However, they did not get him on my son's case, they 
got him on another murder because they couldn't get him on my 
son's case because everybody was afraid to step up. So if you 
start protecting these witnesses more, ensuring them some type 
of safety, I'm sure more witnesses would step up and speak out. 
But if you're not going to--if you're just going to take them 
and get the testimonies and throw them to the wolves, you know, 
it's obvious that nobody wants--like you say, you know, 
everybody has a life. You know, people want to live their life 
and people want to go on with their normal lives. They don't 
want to have to relocate, move, and take their children from 
one school to another and live in fear. Who wants to live in 
fear? I mean, I don't, you know. And I'm just grateful that, 
you know, the detectives and the police department did a great 
job on, you know, handling my son's murder to give us closure. 
And I really, you know, appreciate the fact that they kept in 
touch, and I kept on--on them myself. And instead of me, you 
know, going ballistically crazy and wanting revenge, I chose to 
do it another way by, you know, joining an organization that we 
basically are against violence, and we go out to try to stop, 
you know, violence.
    And I'm actually starting another organization myself, 
Fathers Fed Up. I can always let gentlemen of my character, 
people who have gone through what I've gone through, have a 
place to come and listen and talk and we can all, you know, 
have different opinions on what we need to do about going out, 
trying to get these youths. Because it starts at home, like 
Commissioner Ramsey was saying. It starts at home. And I don't 
want to give my age, but when I came up, the whole neighborhood 
was in charge of a child.
    Senator Specter. Why don't you want to give your age?
    [Laughter.]
    Mr. Canada. Because, you know, when we had that kind of 
stuff going on where your neighbor could discipline you or your 
teachers could discipline you, it was less. We had less 
violence. Now it's just like, a lot of people come from broken 
homes, a lot of people come from drug-infested homes. And a lot 
of that starts at the house and it escalates into violence.
    Senator Specter. Mr. Canada, have you noticed any 
improvement in the crime problem in Philadelphia since you 
were, say, a teenager to the present time?
    Mr. Canada. The only improvement that I could say that I've 
really noticed, because I actually was a part of the gang era--
I grew up in the 1960s and 1970s--and I do commend them for 
stopping the gang wars. However, anything after that, it 
doesn't seem like it's so much of a difference.
    Senator Specter. When were you a teenager, without prying 
too much?
    [Laughter.]
    Senator Specter. Just to give an idea of the span of your 
experience.
    Mr. Canada. Back in the 1970s and 1980s.
    Senator Specter. Uh-huh. Uh-huh.
    When you said his picture was posted, amplify what you 
meant by that.
    Mr. Canada. No. I said his statement, the statement of one 
of the witnesses was actually posted up in a Chinese restaurant 
in his neighborhood. And what it looks like right now----
    Senator Specter. The statement, the testimony he gave?
    Mr. Canada. The testimony. That's correct. It was posted.
    Senator Specter. They were trying to expose him?
    Mr. Canada. Yes. And they were basically calling the 
gentleman, you know, a snitch or a rat, and so on and so forth, 
like the Commissioner was stating earlier. I'm trying to figure 
out why, or how could anyone even get, you know, a copy of 
something like that to--to post it up, which means, you know, 
somebody's not being held accountable for, you know, things 
that they're doing because----
    Senator Specter. The Commissioner testified about going 
back to the movies in the 1930s, using the comment ``rat,'' 
somebody who told on somebody else. Has that gotten any worse, 
say, today than it was when you were growing up in the 1960s 
and 1970s?
    Mr. Canada. No, sir. No, sir. It's changed. It's just a 
different slang. It's the same terminology, it's just put in a 
different way. Today they call them snitches. They have a 
phrase out there, ``snitches get stitches.'' And, you know, 
it's just a different terminology. Our group, Men United, we 
were--we held a big protest about those tee shirts being 
printed up. We went to several stores and caused a lot of 
commotion and we got a lot of merchants to take those tee 
shirts--they had tee shirts printed up about snitches, don't--
stop snitching, and don't be a snitch. So it's just different 
terminology, that's all. It's the same.
    Senator Specter. Your son was shot 12 times?
    Mr. Canada. That's correct.
    Senator Specter. Uh-huh. Because he was going to be a 
witness?
    Mr. Canada. No, my son wasn't going to be a witness.
    Senator Specter. Why was he shot?
    Mr. Canada. My son was shot--I got two different--two or 
three different reasons, but one of the reasons they print 
mostly was over a gambling debt. Two young men were arguing 
over a gambling debt. But----
    Senator Specter. And so who was the witness who was 
intimidated?
    Mr. Canada. Johnta. That's the gentleman that I was 
speaking about. He--he got shot, Johnta Gravitt. He was shot 
and killed 10 days later, after testifying.
    Senator Specter. Because he was going to be a witness on 
your son's murder?
    Mr. Canada. He had already testified.
    Senator Specter. He testified at the preliminary hearing?
    Mr. Canada. That's correct. Which gave--which they were 
still able to use his testimony, even though they had killed 
him.
    Senator Specter. They could use the testimony at the 
preliminary hearing.
    Mr. Canada. That is correct. They used his testimony, which 
was enabling us to get closure and bringing one of the gunman 
to--you know, to justice.
    Senator Specter. OK. Thank you very much, Mr. Canada.
    Mr. Canada. Thank you as well.
    [The prepared statement of Mr. Canada appears as a 
submission for the record.]
    Senator Specter. We'll turn now to Mr. Michael Coard, Esq., 
criminal defense lawyer, more than 15 years of State and 
Federal trial experience, formerly worked at the Charles W. 
Bowser Law Center after he served as legal counsel for State 
Senator Hardy Williams. Let me pause and express my regret 
about the passing of Senator Hardy Williams yesterday.
    Mr. Coard. Thank you, Senator.
    Senator Specter. A friend of mine for decades, outstanding 
lawyer.
    Mr. Coard. Yes.
    Senator Specter. Outstanding public official. Also an 
outstanding basketball player, going back quite a few years.
    Mr. Coard. Absolutely.
    Senator Specter. Mr. Coard is an adjunct professor in the 
African Studies Department and the Urban Studies Department at 
Temple, as well as an instructor in the Criminal Justice 
University's Pan-African Studies program.
    He is the recipient of many awards, including the 
prestigious Cecil B. Moore award. Did you know Mr. Cecil B. 
Moore?
    Mr. Coard. I did not, no.
    Senator Specter. Well, he was a distinguished trial lawyer.
    Mr. Coard. I heard so much about him, Senator. Yes.
    Senator Specter. He was quite a personality. Head of the 
NAACP.
    Mr. Coard. I've heard all the war stories.
    Senator Specter. And probably had more continuances than 
any defense lawyer in the history of Philadelphia.
    Mr. Coard. They had a courtroom set up specifically for 
him.
    Senator Specter. It was more than a courtroom, it was a 
special program. Because he had so many cases, he could have 
been in any one of 20 courtrooms. So while I was DA, we decided 
to put in the one courtroom, so he sued me in the Federal court 
for violating his civil rights. The judge said, no, a District 
Attorney is within his rights, and you've got to go to trial 
and we've got to figure out where you are, because he'd have 20 
listings and he wouldn't try any of them. And when he had 20 
listings, we thought we ought to try one of them, so we did set 
up the special courtroom.
    But notwithstanding those differences, we were good friends 
and we had quite a professional relationship. He had a very 
unusual accident: he fell down an elevator shaft. Did you know 
that?
    Mr. Coard. I did not know that.
    Senator Specter. Yes. Yes. A very handsome man, before he 
fell down the elevator shaft. OK. Enough of history.
    Mr. Coard, we look forward to your testimony.

   STATEMENT OF MICHAEL COARD, LAW OFFICE OF MICHAEL COARD, 
                   PHILADELPHIA, PENNSYLVANIA

    Mr. Coard. Thank you, Senator Specter.
    First of all, I gratefully thank you for inviting me to 
testify before this Senate Committee on the Judiciary, 
Committee on Crimes and Drugs, regarding ``Federal Efforts to 
Address Witness Intimidation at the State and local Levels.'' I 
am honored, as I am sure the other invitees are, to be here.
    I've been a trial lawyer for nearly 20 years, a civic 
activist for more than 15 years, a local radio show host for 
over 10 years, and a university adjunct professor for 
approximately 5 years. It is because of those roles that I can 
unequivocally say that the best--in fact the only--way for the 
Federal Government to address witness intimidation at the State 
and local levels is by adhering to the Constitution of the 
United States of America.
    Stated another way, the Federal Government must make sure 
that it does not break the law in order to make the law. The 
United States Constitution, the Sixth Amendment, and the 
Pennsylvania Constitution, Article 1, Section 9, mandate that a 
person accused of a crime has the fundamental right to be 
confronted with witnesses against him or her.
    I mention this because one of the first actions always 
considered in the commendable attempt to protect against 
witness intimidation is the condemnable attempt to allow 
illegal hearsay in as evidence in a trial or hearing. The 
erroneous rationale is that the most effective way to stop 
witness intimidation is to allow police officers or other 
persons to testify in court about what they allegedly heard 
someone else who is not in court say. Not only is that 
unconstitutional, it is also unfair.
    In Pennsylvania, including, obviously, Philadelphia, there 
is case law and statutory law already on the books that, under 
certain legally-sanctioned circumstances, allow for non-
testifying witnesses'--i.e., hearsay issue-related witnesses--
statements to be entered into evidence. One example is Rule 803 
of the Pennsylvania Rules of Evidence.
    Moreover, numerous longstanding Pennsylvania public court 
decisions permit such throughout the criminal court process, 
most notably, interlia, at preliminary hearings wherein hearsay 
objections by defense counsel are often a complete waste of 
breath.
    Furthermore, in cases wherein witnesses do appear in court 
but purportedly are so intimidated that they testify in a 
manner that contradicts their previous statements to police 
against defendants, there also are laws already on the books 
that, once again, under certain legally-sanctioned 
circumstances, allow for those earlier inculpatory prior 
inconsistent statements to be used against defendants 
regardless of what those witnesses later testify to in court. 
Two examples are Rules 607 and 613 of the aforesaid 
Pennsylvania Rules of Evidence, and there are longstanding 
Pennsylvania public court decisions that also allow such.
    Accordingly, there is absolutely no need for Federal 
involvement in terms of creating law or expending limited 
resources, neither is there absolutely any need for creating 
more State law. Instead, there is simply a need to more 
intelligently, hence efficiently, enforce State law that 
already exists.
    In addition to the aforementioned State laws that already 
permit certain hearsay statements or hearsay issue-related 
statements to be entered into evidence, there are also State 
laws that already protect victims of witness intimidation, and 
those laws are found in Pennsylvania Crimes Code Section 4925, 
``Intimidation of Witnesses or Victims,'' and 4953, 
``Retaliation Against Witness, Victim, or Party,'' both of 
which can be charged as felonies. We all must, and should, have 
genuine sympathy for victims of witness intimidation, certainly 
when violence results, and especially when death results.
    But the Federal Government should not be in the business of 
engaging in unlawful--i.e., unconstitutional--behavior in an 
attempt to protect the public from criminals' unlawful--i.e., 
murderous and otherwise violent--behavior. The Constitution 
must, and should, apply to all law-abiders, as well as to law-
breakers; after all, this is America.
    I would be remiss if I failed to address what actually led 
to this hearing, and that is the Philadelphia Inquirer's 
apparently well-intentioned, but frightfully inflammatory and 
journalistically incomplete four-part series from December 13 
through December 16, 2009. It was frightfully inflammatory in 
its unnecessary use of phrases such as ``blood-splashed,'' 
``witness intimidation as an epidemic in Philadelphia that 
pervades Philadelphia criminal courts, which are in a crisis,'' 
and also defendants ``beating cases and escaping convictions 
with stunning regularity.'' It was journalistically incomplete 
in its failure to fairly acknowledge an essential principle of 
American criminal jurisprudence, which is that a person who is 
arrested is always presumed innocent.
    As stated to me by Troy H. Wilson, Esq., a noted criminal 
and civil court litigator and the former chairman of the 
Philadelphia Bar Association's Criminal Justice Section, ``The 
Inquirer's articles were based on a flawed premise, which is 
that people released on so-called technicalities were guilty. 
However, the presumption of innocence is paramount and 
continues even after a person's case has been discharged, 
whether due to the District Attorney's delay, or any other 
reason.''
    In addition, asserted Wilson, ``Defendants do not 
automatically get off scot-free during those actually 
relatively few times when cases are dismissed as a result of 
witnesses' failure to appear.'' As he makes clear, ``The 
District Attorney has the legal wherewithal to merely file, and 
easily file, a motion to rearrest the defendant on the very 
same dismissed charges in such cases. It's as simple as that.''
    The Inquirer directed most of the blame for this supposed 
epidemic and crisis on criminal defense attorneys, the men and 
women who serve as vigilant watchdogs to make sure that the 
State and Federal Constitutions are respected and that the 
local, State, and Federal Governments are barred from 
unconstitutional violations. The newspaper claimed that, 
``Defense lawyers routinely exploit the court system's chaos by 
delaying cases to wear down victims and witnesses and seek 
spurious postponements if they know the prosecution witnesses 
are in court and ready to go.''
    The moniker, ``Philadelphia Special'' was used in the four-
part series to describe this kind of unethical behavior. 
However, prominent defense counsel George H. Newman, Esq. 
indicated to me that in his more than three decades as a 
criminal trial lawyer, he has never heard of such a name or 
concept. In my nearly twenty years, neither have I, and that is 
because it does not exist.
    Mr. Newman made another, much more key point about the 
series in general when he said that, ``The Inquirer's 
statistical analysis is unrealistic, since it precludes 
preliminary hearings. As all lawyers and judges know, the 
District Attorney consistently over-charged arrested persons, 
filed baseless criminal accusations, and prosecuted unprovable 
cases.''
    ''Moreover,'' remarked Newman, ``the articles are filled 
with statistical misrepresentations, panicky innuendoes, and 
some worst-case anecdotes.'' In connection with baseless 
criminal accusations and unprovable cases, another 
distinguished criminal trial attorney, namely Charles A. 
Cunningham, who was first assistant in the Defender Association 
of Philadelphia and has been a member of the Pennsylvania Bar 
for 35 years, pointed out to me that the District Attorney 
often accuses and jails factually innocent people.
    He noted the recent case wherein someone allegedly claimed 
to have been attacked by three persons, which resulted in three 
men being arrested, detained, and jailed when they could not 
afford to pay bail. However, after 3 months--i.e., about 90 
days--when the preliminary hearing was finally held, the 
complainant identified only one of the three as an attacker. 
The second defendant was actually a Good Samaritan who had 
attempted to intervene on behalf of the victim, and the third 
defendant was merely present with 20 others near the scene.
    Why didn't the District Attorney investigate the facts 
before, in effect, sentencing these two defendants to 
unwarranted and lengthy jail time? Although these two were 
ultimately released as a result of the unrebutted exculpatory 
evidence at the preliminary hearing, they lost a quarter of a 
year of their lives that can never be replaced and for which 
they will never be compensated, and they, as well as many other 
similarly situated persons, are cavalierly lumped into the 
Inquirer's gang of defendants who are supposedly ``beating 
cases and escaping convictions with stunning regularity.''
    As mentioned in Mr. Cunningham's final comments, even if 
the criminal justice system is completely broken, it is not 
because of what the Inquirer contends. Instead, it is because 
of a system that refuses to address ``the real issues that 
cause crime to occur in the first place,'' obvious issues, such 
as the lack of education and employment.
    While there is no crisis, there is a problem, even if just 
a comparatively few witnesses are intimidated. But with every 
problem, there is always a solution, and that solution, without 
the need for a journalistic hair-on-fire-sky-is-falling 
alarmism, is quite simple.
    In fact, any, some, or all of the following could 
immediately be implemented: (1) housing, transportation, 
protection, and/or financial incentives for witnesses before 
trial; (2) relocation for witnesses after trials; (3) separate 
courtroom waiting rooms for witnesses; (4) community police/
community prosecuting, coalition-building with ex-cons, local 
athletes, and local hip-hop celebrities in order to persuade 
citizens, especially those in the approximately 15 to 25 age 
range, that cooperating with law enforcement to protect one's 
neighborhood does not constitute snitching; and, finally, (5) 
education, job training, and employment opportunities in high-
crime neighborhoods in order to discourage criminality, which 
would reduce crime and which would in turn reduce even the need 
for witnesses.
    In conclusion, I again thank the esteemed Senator Arlen 
Specter for inviting me to testify at this Committee hearing 
regarding primarily the purported crisis of witness 
intimidation in Philadelphia.
    I end my testimony with a question. If there is so much 
witness intimidation, meaning evidence ostensibly substantial 
enough to justify arresting, charging, and jailing so many 
persons with that serious crime, why then are more than 7 out 
of 10 persons accused of that offense found not guilty or 
otherwise freed?
    Thank you, Senator.
    Senator Specter. Thank you very much, Mr. Coard.
    [The prepared statement of Mr. Coard appears as a 
submission for the record.]
    Senator Specter. When you criticize the Inquirer article, 
don't you think that there are major problems in the system 
which need action, such as the fugitives--estimated, one 
figure, 47,000 fugitives--with the need to have resources 
devoted to apprehending those individuals? Isn't that one issue 
which it's useful to have some spotlight on?
    Mr. Coard. Absolutely. In fact, I think the Philadelphia 
Inquirer did a great service to the community by provoking this 
discussions. The primary criticism that I have, Senator, is 
that the Inquirer simply went for the easiest target, which 
seems to be defense attorneys, that if bad guys get off, it's 
because of some trick being played by defense attorneys, which 
could not be further from the truth.
    Senator Specter. So you would concede that, as in your own 
words, the Inquirer did do some real public service in some 
lines?
    Mr. Coard. Absolutely.
    Senator Specter. And with respect to the issue of Federal 
grants to be able to assist a city like Philadelphia, which has 
a very low tax base and grave difficulties allocating funds on 
housing, education, et cetera, if the result is to have some 
Federal money, isn't that a desirable consequence, too, as a 
result of the spotlight?
    Mr. Coard. Absolutely, positively. In fact, that was one of 
the suggestions that I included in my proposals as to how this 
issue could be addressed. So, absolutely, positively, Senator. 
No doubt about it.
    Senator Specter. Do you think it would be appropriate to 
have Federal legislation which would make it a Federal crime to 
intimidate a State court witness?
    Mr. Coard. No, and I'm glad you asked that. There's 
absolutely no need for it, as we have now in Pennsylvania--we 
have two laws on the books where persons who commit that type 
of egregious crime could be charged with a felony. So it simply 
seems to me that the Philadelphia District Attorney's Office 
could go after the people, and go after them vigorously, for 
this type of crime.
    Senator Specter. Mr. Coard, there are many offenses which 
are Federal crimes, even though they are State court crimes as 
well. The Armed Career Criminal Act, for example, a law that I 
wrote in 1984. I had experience on so many burglary and robbery 
cases where probation was given, and we defined a career 
criminal caught with a firearm, giving a mandatory sentence. 
Perhaps you don't think that was a good bill. Let me start by 
asking you if you think that was a good bill.
    Mr. Coard. Well, absolutely. The distinguishing factor here 
is that, why have two good laws when you already have one great 
law? We already have the laws in Pennsylvania. They cover 
precisely what you're talking about and what the Inquirer is 
talking about. If there were no felony law to go after these 
bad guys who intimidate witnesses, then I wouldn't be 
complaining as I am. But we already have it.
    Senator Specter. But you thought the Armed Career Criminal 
bill was a good bill?
    Mr. Coard. I think--the answer is yes. And I think any bill 
that goes after violent criminals in a way that the State law 
can't do is always a good thing. But in this case, the State 
law can do it, and do it well.
    Senator Specter. Well, Mr. Coard, you practice in both the 
Federal and the State courts.
    Mr. Coard. Yes.
    Senator Specter. Isn't it true that if it's a Federal 
offense and the FBI is on the case and you're going to be 
called into a Federal court, that there's considerably more 
concern by a prospective defendant of being prosecuted there 
than in the State courts?
    Mr. Coard. Yes. But--and the but is a big one--with all due 
respect to the Federal prosecutors, who do a great job, the 
county prosecutors in the Philadelphia District Attorney's 
Office do just as great--I won't say better, but as good a job, 
if not better. I think the distinguishing factor is the 
resources that the Federal Government has that the State 
government doesn't have. If we flipped it----
    Senator Specter. That's a big distinguishing factor.
    Mr. Coard. And so to me, that's the issue. And not only do 
they have more resources on the Federal level, if you gave that 
same money to the District Attorney's Office in Philadelphia, 
they could show you the same stats that the Feds do. But apart 
from the financial resources, there's the type of cases.
    Senator Specter. Is it easier to get a continuance in the 
State court than in the Federal court?
    Mr. Coard. It's difficult in both. But to answer your 
question directly, it's almost impossible in the Federal court 
to get a continuance. But one thing, one point----
    Senator Specter. I take that as a yes answer.
    Mr. Coard. Absolutely. One quick point I did want to make 
is that in every case I've had, mostly armed robbery cases that 
have left the State courts and gone to the Federal courts, the 
evidence has been overwhelming. So it seems unfair to say that 
the State prosecutors can't get a conviction but the Federal 
prosecutors can get a conviction.
    The point is, in my experience over 20 years, the Feds get 
the better cases, the stronger cases. In my experience, I've 
never had a case as weak in the Federal level as I've had in 
the State level. So it seems to me that because the resources 
of the Federal Government, because they get stronger cases, 
it's easier to get more convictions.
    Senator Specter. You gave some testimony on the use of 
hearsay and you dealt with prior inconsistent statements, and 
you can impeach a witness on a prior inconsistent statement. 
But isn't that testimony on impeachment limited by the judge's 
instruction on the credibility of the witness as opposed to the 
substantive testimony on the underlying offense?
    Mr. Coard. Well, I'd argue, respectfully, no. In situations 
where the Commonwealth----
    Senator Specter. You don't have to be respectful. Why do 
you argue no?
    Mr. Coard. Thank you. In every case I've ever had where the 
Commonwealth has attempted to bring in prior inconsistent 
statement, the judge would rule based on whether or not one 
statement was directly contrary to the other statement, not so 
much about the issue of credibility. But if the witness today 
is saying no, but the prosecution can show that yesterday he 
said yes, the judge has always allowed that in, regardless of 
whether the judge thinks that the witness was lying before.
    Senator Specter. But doesn't the judge give limiting 
instruction? Let me rephrase the question: shouldn't the judge 
give a limiting instruction on cross examination going to 
credibility as opposed to substantive evidence?
    Mr. Coard. Well, yes. In fact, defense attorneys often 
request that. But to be quite honest, once the jurors have 
heard the inconsistency, then they're going to make their 
decision. But you're absolutely correct.
    Senator Specter. That's different.
    Mr. Coard. Certainly. But to answer your question directly, 
yes, the judge can give that limiting instruction. But I think 
every trial lawyer knows that limiting instructions really 
don't mean a whole lot. A judge will tell the jury to consider 
certain evidence for this, but not for that. That's like 
telling the jury, think of everything except a blue horse. 
Well, the first thing they're going to think of is what they 
were told not to. So, limiting instructions are a good thing 
because they're the only thing, but they're not an effective 
thing.
    Senator Specter. How about a mistrial?
    Mr. Coard. That's great from a defense standpoint, but 
that's rare.
    Senator Specter. If the limiting instruction is 
insufficient, you have the recourse of a mistrial. Mr. Coard, 
we're going to be back here, I don't know how many decades, and 
we're going to have a young lawyer testify who occupies the 
Michael A. Coard chair of some distinguished law school. You 
are very articulate and obviously a good lawyer.
    Mr. Coard. Thank you, sir.
    Senator Specter. We thank you for coming in.
    Mr. Coard. I appreciate hearing that from you.
    Senator Specter. Our final witness is Professor Richard 
Frei, Associate Professor at Philadelphia Community College. He 
headed up the Snitching Project. I infer that that's 
academically heading up a project as opposed to being a head 
snitcher.
    Professor Frei. No, heading up the project.
    Senator Specter. In conjunction with the Center for Law and 
Society. He has directed interdisciplinary, student-driven 
research initiatives on the phenomenon of snitching, trained 
students in applied research. He has a bachelor's degree in 
Psychology and a very distinguished academic record, and is 
undertaking a very interesting line of study.
    Thank you for joining us, and we look forward to your 
testimony.

 STATEMENT OF RICHARD L. FREI, ASSOCIATE PROFESSOR, COMMUNITY 
                    COLLEGE OF PHILADELPHIA

    Dr. Frei. Thank you, Senator Specter. Thank you for the 
honor of appearing before you today. My name is Dr. Rick Frei. 
I'm Associate Professor of Psychology at Community College of 
Philadelphia. My area of expertise is applied community 
research, specializing in using large-scale survey research as 
our teaching tool in my psychology courses.
    Over the past decade I have overseen a number of large-
scale community surveys on topics such as the use of check-
cashing institutions, corporal punishment, attitudes toward 
guns and gun violence, and over the past 2 years, the ``Stop 
Snitching'' phenomenon and its impact on the community 
involvement in the Philadelphia community justice system.
    Today we've heard heartbreaking and disturbing testimony 
from victims and advocates regarding rampant witness 
intimidation that is prevalent in Philadelphia, although Mr. 
Coard seems to think it's not as prevalent as the Inquirer 
said.
    My goal today is to frame the testimony in a larger context 
of the Stop Snitching movement. For example, in the 
Philadelphia Inquirer's recent extensive reporting on the 
failures of our criminal justice system, the reporters describe 
the case of Martin Thomas, whose statement to police was turned 
into a threatening flyer that was posted throughout North 
Philadelphia.
    While the primary goal of this flyer was to physically 
threaten the witness, it also served a secondary purpose, 
identifying Thomas as a rat who could no longer be trusted in 
this neighborhood. The idea that cooperating with police could 
in fact tarnish your reputation among family, friends and 
neighbors, even if the perpetrator of the crime was a feared or 
despised person, is at the core of the Stop Snitching 
phenomenon. Such intimidation techniques can only occur if the 
community buys into the Stop Snitching culture.
    My goal today is to give you a better understanding of the 
people's attitudes toward snitching and cooperating with 
police, which ultimately facilitate the coercive witness 
intimidation techniques that we have heard so much about today.
    The Stop Snitching phenomenon is widely discussed in the 
media, yet poorly understood as a psychological construct. It 
is regularly decried as a major impediment to law enforcement, 
and yet scant systematic research has been conducted to 
identify its possible origins. Even the word ``snitch,'' which 
we talked about before, has been so misused and overused in the 
media, that it's now synonymous with anyone who cooperates with 
any authority figure, regardless of the situation.
    For example, recently when National Football League 
Commissioner Roger Goodell recently called for players to tell 
their teams' medical staffs if they suspected a teammate showed 
symptoms of a concussion, Washington Redskin fullback Mike 
Sellers responded, ``We ain't no snitches over here. This is 
not happening.'' What was once considered a code among thieves 
and then a code of the street is quickly becoming a societal 
norm.
    The Snitching Project is an ongoing student-driven public 
policy research initiative in conjunction with Community 
College of Philadelphia's Center for Law and Society, aimed at 
developing a better understanding of the snitching phenomenon 
and facilitating community discussion through education.
    The project began in 2007 as part of an applied psychology 
course at the college. Students conducted extensive library 
research on the topic of snitching and cooperating with police. 
Based on this research, students next conducted focus groups 
throughout the city of Philadelphia to get a better 
understanding of snitching, people's attitudes toward the 
police, and community involvement.
    From these focus groups, we concluded that: (A) there is 
not one common definition of snitching; and (B) both 
attitudinal and situational factors influence whether, and to 
what extent, a person would provide evidence to the police.
    We developed hypotheses regarding the nature of the 
snitching construct, possible antecedents and correlates of 
snitching attitudes, and situational factors, such as 
characteristics of the victim or the perpetrator, that might 
influence involvement. Then the students administer the survey 
to test their hypothesis to about 1,500 community college 
students, so we had a very large sample for this.
    My goal today is going to be a brief summary of that 
research, along with some of the recommendations regarding ways 
to improve community involvement in our criminal justice 
system. I'm not going to go through the whole thing here, but a 
couple things I want to point out here.
    First and foremost, one of the things that Commissioner 
Ramsey had spoken about was looking at people's life 
experiences and their attitudes toward snitching. One of the 
things he said was that people who had past experience with 
police and the criminal justice system and those who engaged in 
illegal behavior would be more likely to view any form of 
cooperating with police as a form of snitching. Further, they 
would be less likely to trust police.
    What we found was that nearly half of our respondents 
reporting being victims of crime, so out of the 1,500 students 
we had asked, almost 750 said that they had been victims of 
crime in the city, and nearly two-thirds had friends or 
relatives who had been victims of crime as well. Twenty-one 
percent of the respondents have been in trouble with the police 
before; 17 percent reported being falsely accused of a crime in 
the past; 7 percent said they had been snitched on before, and 
only 2 percent said they'd ever snitched on anyone else.
    What we found is that over 60 percent said that they knew a 
police officer personally, and nearly half reported cooperating 
with police in the past, although half the sample also said 
they did not trust police at all. Those respondents who knew 
police officers personally were more likely to trust the police 
and less likely to view cooperating with police as a form of 
snitching.
    We also hypothesized that students who engaged in illegal 
behavior would be more likely to find snitching as cooperating 
with police and less likely to cooperate with police in any 
situation. To assess illegal behavior, we asked students if 
they'd used illegal drugs in the past 30 days. Fifteen percent 
of our sample said they had. We also asked students if they had 
drunk alcohol in the past 7 days. Since we also had students' 
age, we were able to identify those respondents who engaged in 
illegal underage drinking, and about 13 percent of our sample 
fell in that category.
    Those students who engaged in these illegal behaviors were 
much more likely to view cooperating with police in any 
situation as a form of snitching.
    Senator Specter. Professor Frei, may we leave the 
statistics for just a moment and talk about the psychological 
phenomenon?
    Dr. Frei. Okay.
    Senator Specter. What is the origin of the disapproval of 
someone who has been injured, robbed, beaten, observed a 
homicide/murder, testifying? What is wrong with that to bring 
social disapproval to it?
    Dr. Frei. What we found in our survey is that students were 
very concerned about how cooperating with police would 
influence their reputation in the neighborhood they lived in. 
Many of our students----
    Senator Specter. Well, let's start with the simple 
proposition.
    Dr. Frei. Okay.
    Senator Specter. You get disapproved, but is there 
something wrong with that conduct? Identify any aspect of that 
conduct which is wrongful.
    Dr. Frei. That's wrongful?
    Senator Specter. Yes.
    Dr. Frei. In regards to what?
    Senator Specter. What's wrong with reporting a crime, 
especially if it's a crime against yourself?
    Dr. Frei. What's wrong with reporting a crime?
    Senator Specter. Somebody beat you on the head in a robbery 
and you go to the police and you testify in court. Is that 
person a snitch?
    Dr. Frei. Well, actually, in our research we asked people 
how they defined the term ``snitch,'' and what we found was 
that nearly 50 percent of our students talked about any form of 
cooperating with police at all as a form of snitching: picking 
someone out of a line-up, answering police questions----
    Senator Specter. Well, somebody will say anything about 
anything. Now, my question to you, Professor, is a snitch 
someone who is beaten in a robbery, identifies the perpetrator 
and testifies in court?
    Dr. Frei. In my definition, no. My definition of a snitch 
is someone who testifies against someone else as a way of 
reducing their sentence in a crime. That's the way I define it, 
and that's the way the majority of our students define it.
    Senator Specter. Well, if you don't have the motivation to 
get a lesser sentence, you would not be a snitch?
    Dr. Frei. I wouldn't define that as a snitch, but I think 
the majority of people in Philadelphia would.
    Senator Specter. I gave you the example of the guy who's 
beaten on the head and robbed. Now, a witness who sees somebody 
beaten on the head and robbed and he testifies, is he a snitch?
    Dr. Frei. I wouldn't think he's a snitch, but I think that 
there's a lot of people in Philadelphia that would consider 
anyone who cooperated with police a snitch. Is your question 
why is that?
    Senator Specter. Well, is this an evolving view? When James 
Cagney shot Humphrey Bogart in 1935 and said, ``You rat''----
    Dr. Frei. I'm not familiar with the situation of why he 
shot him in the first place. Was he testifying against?
    Senator Specter. I'll tell you why he shot him: it was in 
the script.
    [Laughter.]
    Senator Specter. It was a good movie. But my question to 
you, aside from the illustration, which I'm surprised that a 
man of your scholarly research didn't know about, was has the 
disapproval of snitches gotten greater in 2005 contrasted with 
1935?
    Dr. Frei. I think it's certainly been marketed. I think 
that part of it has to do with the fact that there are people 
who are making money off of the Stop Snitching movement. That 
certainly is a part of it. So in that regard, I think it's more 
of a cultural thing because people are using it to make tee 
shirts and to sell albums.
    Senator Specter. OK. Mrs. Clowden's son sees a man dousing 
her house with gasoline to burn her up, arson/murder. Is he a 
snitch?
    Dr. Frei. For reporting that?
    Senator Specter. Yes.
    Dr. Frei. No, I don't think so.
    Senator Specter. But in the community, would he be 
regarded----
    Dr. Frei. I think in the community--well, you have to think 
about it in the larger context. It's not just this community, 
it's all communities. It's in the Senate. People in the Senate 
don't like to have other people----
    Senator Specter. Well, the question of this community, all 
communities. Would he be regarded as a snitch?
    Dr. Frei. In many circles, yes.
    Senator Specter. Uh-huh. And why is that?
    Dr. Frei. Why is that? Well, I think there are a number of 
reasons. Let's look at the fact that very often groups like to 
police their own. You know, I think----
    Senator Specter. What's that? What's that?
    Dr. Frei. To police their own. A lot of--you know, when we 
did focus groups throughout the----
    Senator Specter. I still didn't understand. To police what?
    Dr. Frei. Police their own police. I mean, when we went out 
in focus groups in the city----
    Senator Specter. They want to police their own people?
    Dr. Frei. Yes.
    Senator Specter. As opposed to having the police department 
police them?
    Dr. Frei. Yes. Absolutely.
    Senator Specter. Well, who's going to go after this guy who 
commits the arson/murder?
    Dr. Frei. Who is going to go after them? Many people in the 
city would say that----
    Senator Specter. Is there a posse in the neighborhood, 
self-help?
    Dr. Frei. We've seen that in the past. That's not uncommon 
to happen. We saw that in Kensington recently where a man was 
accused of molesting a child and a posse went after him. People 
like to police their own group. The police don't like outside 
people policing them.
    Senator Specter. Let's stick with my examples, unless you 
want to be elected and run your own hearing.
    Dr. Frei. Are you requesting that I do that? That would be 
good. I'd do that.
    Senator Specter. If someone is considered a snitch because 
they see this guy douse the house with gasoline, then perhaps--
or not perhaps. We ought to try to find some way to deal with 
that kind of a mentality, which is wrong.
    Dr. Frei. Uh-huh.
    Senator Specter. How do we do that? You're a professor.
    Dr. Frei. I'd say we start when they're young. One of the 
things we found in our survey was that a lot of students were 
told growing up that snitching was a bad thing, that 
cooperating with police was a bad thing. You know, we think 
it's being influenced by a lot of outside sources, so is the 
family.
    Senator Specter. Are you saying that's a prevailing culture 
in this community?
    Dr. Frei. I would say, as Commissioner Ramsey said, people 
who are engaged in illegal behavior, even minor illegal 
behaviors, are less likely to cooperate with police. So if, for 
example, let's say you're a parent and you smoke marijuana. You 
would tell your children, oh, make sure you don't cooperate 
with police, it's bad to snitch, snitching's a bad thing. I 
think in many ways this is not coming from outside sources. A 
lot of times it comes from the family.
    Senator Specter. Well, are you saying that it's a 
prevailing attitude in Philadelphia?
    Dr. Frei. Absolutely. It's a common attitude in 
Philadelphia.
    Senator Specter. Not distinguished by neighborhoods or 
racial----
    Dr. Frei. Or age. No. It's a----
    Senator Specter. Just to cooperate with police?
    Dr. Frei. Just to cooperate with police in general.
    Senator Specter. How many in this room think that 
cooperating with police is a bad thing to do and you'd be 
classified as a snitch and you're doing something bad to 
cooperate with police; would you raise your hands?
    [Showing of hands.]
    Senator Specter. How many of you think that to cooperate 
with police and report a crime is something that you ought to 
do?
    [Showing of hands.]
    Ms. Hines. If someone is classified as a snitch, then they 
could.
    Senator Specter. And still be classified as a snitch?
    Ms. Hines. The way you posed the question was a little----
    Senator Specter. Consider yourself under subpoena and step 
forward so we can hear you.
    [Laughter.]
    Ms. Hines. Hi. My name's Erica Hines. It is the correct 
thing to do, to tell if you see a crime. However, that doesn't 
change the fact that the people in your community around with 
you will view you as a snitch. So your question was how many 
people think it's wrong, or how many people think that it's 
snitching to tell the police. I think that I would always 
cooperate with the police and I would tell the police whatever 
I knew if it could help someone. However, that doesn't mean 
that the people around me in my neighborhood would not view me 
as a snitch, they would. So your question is sort of two-fold. 
Did I say that right?
    Senator Specter. Would you feel bad about being considered 
to be a snitch?
    Ms. Hines. Personally, I don't. But I'm also--I mean, I'm a 
35-year-old woman who is an attorney, who, no, I would not feel 
bad about it. But I understand that my 21-year-old brother 
would feel awful.
    Dr. Frei. I mean, you also have to understand that people 
rely on their--and in a lot of these neighborhoods where 
there's not a strong family structure in a lot of these 
families, they rely on their neighborhood to survive. You rely 
on the people who are your neighbors to get through the day, 
especially if you live in a violent neighborhood.
    Senator Specter. There are a lot of neighborhoods with a 
strong family structure. Are you saying that in neighborhoods 
with a strong family structure, that people consider it being a 
snitch to cooperate with the police?
    Dr. Frei. I would say that it's not a precursor to it, but 
certainly at least having a family structure to fall back on 
for support--you know, if I cooperated with a crime, if I saw a 
crime and I cooperated, my family would support me.
    Senator Specter. Usually when I listen to an answer I try 
to figure out whether it's yes or no. I couldn't find your 
answer out at all.
    Dr. Frei. So, repeat the question again.
    Senator Specter. In a neighborhood with a strong family 
structure, would they consider cooperating with police to be a 
snitch?
    Dr. Frei. They'd be less likely. I'll say that.
    Senator Specter. You're still dodging, Professor.
    Dr. Frei. I can't say no. I mean, I'm sure there are 
people--and our study found this, too. There were people who 
came from strong families who still consider cooperating with 
police being a snitch. I think they are less likely. In 
psychology we don't like to give yes or no answers, it's more 
or less likely.
    Senator Specter. Well, you have identified a problem of 
sufficient intensity that it requires a response, in my 
opinion. I want to study it further, but it requires a 
response. The response may be, very directly, to instruct 
children in school that there's a duty to cooperate with law 
enforcement, where somebody--where they're a witness to 
something which is wrongful conduct, and that it is not 
something to be ashamed of, to cooperate with police, but 
something that ought to be done.
    So if law enforcement breaks down because of some misguided 
notion about being a snitch, it's something we have to deal 
with. What do you think, Mr. Coard? I ask you there because 
you're nodding yes, otherwise I wouldn't have asked you.
    Mr. Coard. I think first we need to define what snitching 
is. From my standpoint, snitching is not telling the police 
when you witness a crime. That's simply being a good citizen. 
Snitching is when you're one of the criminals and you get 
caught and you tell on your compatriots. That's snitching. 
That's the textbook definition of snitching.
    I mean, they say there's no honor among thieves, and maybe 
there isn't any honor among thieves. But from my standpoint, 
snitching has a specific definition. Unfortunately, most people 
don't know what it is, but snitching does not mean telling the 
police when you see a crime. It means being a criminal and 
telling on your partners.
    Senator Specter. Well, that is an acceptable definition for 
social conduct, I would say. But I would take it one step 
further. Frequently somebody will testify against a co-
conspirator to get a reduced sentence, and of course that is 
sanctioned by the law.
    Mr. Coard. Yes.
    Senator Specter. That is encouraged. Do you think that the 
person who tells the truth against a co-conspirator to get a 
lesser sentence himself or herself is doing something wrong?
    Mr. Coard. Doing absolutely nothing wrong, doing everything 
right. A snitch nonetheless, but doing everything right.
    [Laughter.]
    Senator Specter. Well, it's been very illuminating. Thank 
you very much, Mrs. Clowden, Mr. Canada, Mr. Coard, and 
Professor Frei.
    What the Subcommittee is going to do, is examine these 
issues further. One action is to try to encourage and support 
grants to cities like Philadelphia for witness protection 
programs. Another line would be my inclination, after some 
further study, to propose Federal legislation to make it a 
Federal crime to intimidate a State court witness. That turns 
on whether it's involved in interstate commerce. You can't take 
something which is purely local. But criminals move in 
interstate commerce, and I think that would be upheld. I think 
it would be socially desirable.
    My conclusion from the witnesses' testimony and my own 
experience is that people are a lot more apprehensive about 
being charged with a Federal crime when the FBI comes in and 
appearing before a Federal judge, where the cases are better 
prepared, they do have more resources, the sentences are 
longer, and the continuances are much tougher to get and cases 
don't go on for years. When the DA is criticized in 
Philadelphia for a conviction rate which turns on witnesses who 
do not appear because they are intimidated, that's not the DA's 
fault.
    But I think there is a gigantic problem in Philadelphia 
today called witness intimidation, tragic stories told by Mr. 
Clowden and Mr. Canada, tragic stories. Beyond the personal 
tragedy for their own families, it's a breakdown of the 
criminal justice system. When murderers get away with it 
because witnesses are intimidated, there's no evidence, as we 
heard in the testimony, that's a total breakdown of the rule of 
law and that's an appropriate role for the Federal Government 
to come and help out.
    Thank you all very much. That concludes our hearing.
    [Whereupon, at 11:13 a.m. the hearing was concluded.]
    [Submission for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 57937.001
    
    [GRAPHIC] [TIFF OMITTED] 57937.002
    
    [GRAPHIC] [TIFF OMITTED] 57937.003
    
    [GRAPHIC] [TIFF OMITTED] 57937.004
    
    [GRAPHIC] [TIFF OMITTED] 57937.005
    
    [GRAPHIC] [TIFF OMITTED] 57937.006
    
    [GRAPHIC] [TIFF OMITTED] 57937.007
    
    [GRAPHIC] [TIFF OMITTED] 57937.008
    
    [GRAPHIC] [TIFF OMITTED] 57937.009
    
    [GRAPHIC] [TIFF OMITTED] 57937.010
    
    [GRAPHIC] [TIFF OMITTED] 57937.011
    
    [GRAPHIC] [TIFF OMITTED] 57937.012
    
    [GRAPHIC] [TIFF OMITTED] 57937.013
    
    [GRAPHIC] [TIFF OMITTED] 57937.014
    
    [GRAPHIC] [TIFF OMITTED] 57937.015
    
    [GRAPHIC] [TIFF OMITTED] 57937.016
    
    [GRAPHIC] [TIFF OMITTED] 57937.017
    
    [GRAPHIC] [TIFF OMITTED] 57937.018
    
    [GRAPHIC] [TIFF OMITTED] 57937.019
    
    [GRAPHIC] [TIFF OMITTED] 57937.020
    
    [GRAPHIC] [TIFF OMITTED] 57937.021
    
    [GRAPHIC] [TIFF OMITTED] 57937.022
    
    [GRAPHIC] [TIFF OMITTED] 57937.023
    
    [GRAPHIC] [TIFF OMITTED] 57937.024
    
    [GRAPHIC] [TIFF OMITTED] 57937.025
    
    [GRAPHIC] [TIFF OMITTED] 57937.026
    
    [GRAPHIC] [TIFF OMITTED] 57937.027
    
                                 <all>

</pre></body></html>
